                 Taxpayer Assistance Center Employees
               Correctly Answered More Tax Law Questions
                    During July and August 2003 Than
                        Compared to One Year Ago

                                  December 2003

                       Reference Number: 2004-40-024




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      December 4, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Taxpayer Assistance Center Employees
                                      Correctly Answered More Tax Law Questions During July
                                      and August 2003 Than Compared to One Year Ago
                                      (Audit # 200340020)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       responses to taxpayers’ tax law questions. The overall objective of the review was to
       determine if the IRS provides accurate and timely responses to taxpayers’ tax law
       questions. In addition, Treasury Inspector General for Tax Administration (TIGTA)
       auditors that made anonymous visits to the Taxpayer Assistance Centers (TAC)
       assessed whether IRS employees adhered to operating guidelines on referral
       procedures1 and were professional and courteous, and whether TAC addresses and
       office hours made available to taxpayers were accurate.
       This review was conducted as a result of an amendment to the Treasury spending bill2
       for Fiscal Year (FY) 2002 proposed by Senator Byron Dorgan (Democrat -
       North Dakota), then Chairman of the Subcommittee on Treasury and General
       Government. The amendment requires us to conduct visits to all TACs and report to
       the Congress on whether taxpayers are provided correct and prompt answers to their
       questions. We are conducting anonymous visits to all TACs over a 2-year period. This
       is the tenth in a series of bi-monthly reports that we are issuing in response to the
       amendment to the Treasury spending bill.


       1
         Field Assistance guidelines clearly define the scope of employee expertise (tax law topics for which employees
       receive training) and specific services that are offered to taxpayers within the TACs. Taxpayers that ask questions
       outside the level of employee training should be referred to the IRS toll-free telephone lines or have their questions
       submitted via the Internet (called “R-mail”) for assistance.
       2
         Treasury and General Government Appropriations Act, 2002, Pub. L. No. 107-67, 115 Stat. 514 (2001).
                                                          2


During July and August 2003, TIGTA auditors made 69 anonymous visits to 35 TACs.
The auditors asked 138 tax law questions and determined that IRS employees provided
incorrect answers to some of them. For example, IRS employees:
•   Correctly answered 88 (64 percent) of 138 questions.
•   Incorrectly answered 29 (21 percent) of 138 questions.
•   Referred the auditor to IRS publications and generally advised the auditor to do
    his or her own research to find the answer to 3 (2 percent) of 138 questions.
•   Denied service3 to the auditor for 12 (9 percent) of 138 questions.
•   Correctly offered to call the IRS toll-free telephone line4 for 6 (4 percent) of
    138 questions.
We commend the IRS for the corrective actions it has taken in response to our
previously issued semiannual and bi-monthly reports. We believe the increase in
accuracy rates compared to those in the same period in Calendar Year (CY) 2002 can
be directly attributed to these actions. For example, during July and August 2002, IRS
employees correctly answered 44 percent and referred 14 percent of questions to
publications, compared to correctly answering 64 percent and referring only 2 percent
to publications during July and August 2003.
In January 2003, we began assessing whether IRS employees adhered to operating
procedures to refer to the IRS toll-free telephone lines or Internet those taxpayer
questions that were outside the scope of services that employees should have been
trained to answer. In addition to scheduled visits, our auditors completed visits to
15 other TACs. The auditors asked 40 “out of scope” questions and determined that
employees did not follow referral procedures for 12 (30 percent) of these questions.
Auditors also observed that improvement had been made in providing accurate
addresses and office hours to taxpayers, IRS employees were professional and
courteous to the TIGTA auditors in all 63 visits,5 and wait time for service was
30 minutes or less for all 63 visits.
This report is to advise IRS management of the results of our review. We do not make
recommendations to the IRS in the bi-monthly reports. However, we plan to issue a
semiannual trend report during the second quarter of FY 2004 that will include
appropriate recommendations to help ensure taxpayers are referred to employees that
can provide accurate responses to their tax law questions. Auditors will continue



3
  Auditors were unable to ask 12 questions at 4 TACs that were scheduled to be open but were closed at the time of
their visits. We counted these responses as service denied.
4
  No answer was provided, but the employee referred the auditor to the IRS toll-free tax law telephone number to
obtain an answer to the question.
5
  Percentage is based on 63 visits instead of 70 because 2 auditors could not visit 2 different TACs; 1 other auditor
could not visit another 2 different TACs since the TACs were closed; and only 1 auditor visited the
Youngstown, Ohio, TAC.
                                          3


making visits to the TACs throughout CY 2003. We will also continue to issue
bi-monthly reports on the results to the IRS and the Congress.
Management’s Response: IRS management appreciated our recognition of the
corrective actions they took which increased accuracy rates compared to the same
period for CY 2002. Management continues to take steps to improve accuracy in the
TACs. Their long-term approach to improving quality is implementation of Embedded
Quality, an approach that focuses on standardized measures, employee monitoring,
and feedback at the group level.
The IRS continues to disagree with including referrals to publications and service
denied when computing the accuracy rates. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers who are affected by the
report findings. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
 Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
           During July and August 2003 Than Compared to One Year Ago




                                             Table of Contents


Background ............................................................................................... Page 1
Taxpayers Received Correct Answers to More Tax Law Questions
When Compared to the Same Period Last Year........................................ Page 3
Taxpayers Received Answers to Some Tax Law Questions
Employees Were Not Trained to Answer................................................... Page 6
Auditors Generally Had Positive Experiences When They Visited
Taxpayer Assistance Centers.................................................................... Page 7
Improvements Were Made to Provide Accurate Taxpayer
Assistance Center Office Hours and Addresses to Taxpayers .................. Page 7
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – States Visited During July and August 2003 ...................... Page 13
Appendix V – Management’s Response to the Draft Report ..................... Page 14
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
            During July and August 2003 Than Compared to One Year Ago

                               The Senate Committee on Appropriations was deeply
Background
                               concerned about the findings in a Treasury Inspector
                               General for Tax Administration (TIGTA) audit report on the
                               Internal Revenue Service’s (IRS) Taxpayer Assistance
                               Centers (TAC).1 That report showed auditors did not
                               receive accurate or sufficient answers to 73 percent of their
                               tax law questions posed during anonymous visits to the
                               TACs during January and February 2001. Based on the
                               results of that review, Senator Byron Dorgan (Democrat -
                               North Dakota), then Chairman of the Subcommittee on
                               Treasury and General Government, proposed an amendment
                               to the Treasury spending bill2 for Fiscal Year (FY) 2002.
                               The amendment requires us to conduct visits to all TACs
                               and report to the Congress as to whether taxpayers are
                               provided correct and prompt answers to their questions.
                               Auditors are conducting anonymous visits to all TACs over
                               a 2-year period.
                               The IRS Field Assistance (FA) office in the Wage and
                               Investment (W&I) Division has overall responsibility for
                               the TACs. The TACs exist primarily to serve taxpayers that
                               choose to seek help from the IRS in person. The IRS
                               employees3 that work in the TACs provide assistance in
                               interpreting tax laws and regulations, preparing some tax
                               returns, resolving inquiries on taxpayer accounts, and
                               providing various other services designed to minimize the
                               burden on taxpayers in satisfying their tax obligations.
                               There are currently no statistics on the percent of time spent
                               by employees in the TACs on the services detailed above.
                               The FA office is using FY 2002 data as a baseline to
                               establish standards and other management information in
                               this area.
                               There are approximately 400 TACs located throughout the
                               United States (U.S.), including Washington, D.C.
                               According to the IRS, the TACs served approximately

                               1
                                 Letter Report: The Internal Revenue Service Continues to Give
                               Incorrect Tax Law Information in Taxpayer Assistance Centers
                               (Reference Number 2001-40-077, dated May 2001).
                               2
                                 Treasury and General Government Appropriations Act, 2002,
                               Pub. L. No. 107-67, 115 Stat. 514 (2001).
                               3
                                 IRS employees that work in the TACs are called Tax Resolution
                               Representatives (TRR).
                                                                                             Page 1
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago

                             7.7 million taxpayers between January and October 2003.4
                             Approximately 1.6 million of these taxpayers visited the
                             TACs for assistance with the tax law.
                             In addition to the anonymous visits being performed by
                             TIGTA auditors, the IRS FA office Quality Review Staff
                             began visiting the TACs in October 2002 to anonymously
                             ask tax law questions within the scope of services that TAC
                             employees should have been trained to answer. The results
                             of these reviews will provide each employee’s manager
                             specific feedback on the quality of service provided in the
                             TAC. The IRS established an accuracy goal of 80 percent
                             for FY 2003. The IRS also plans to use our Calendar
                             Year (CY) 2002 results as baseline figures to measure
                             improvement during FY 2003.
                             Our questions relate to 21 tax law topics that are within the
                             scope of services. The questions were designed to cover a
                             wide range of tax law topics to provide an overall
                             assessment of whether taxpayers are receiving correct
                             answers to questions that an individual taxpayer5 might ask
                             when he or she visits a TAC. In May 2003, auditors
                             changed the scope of the questions or added additional
                             scenarios that are more applicable to the types of questions
                             taxpayers ask subsequent to the filing season.6
                             Beginning in January 2003, we also began evaluating
                             whether employees adhered to operating procedures7 to refer
                             to the IRS toll-free telephone lines or Internet (R-mail) those
                             taxpayer questions that were outside the scope of services
                             that employees should have been trained to answer.




                             4
                               We did not validate the accuracy of the statistics provided by the IRS
                             on the number of taxpayers that visited the TACs.
                             5
                               Individual taxpayers are nonbusiness taxpayers that file U.S.
                             Individual Income Tax Returns (Forms 1040, 1040A, or 1040EZ).
                             6
                               The period from January through mid-April when most individual
                             income tax returns are filed.
                             7
                               FA office guidelines clearly define the scope of employee expertise
                             (tax law topics for which employees receive training) and specific
                             services offered within the TACs. Taxpayers that ask questions outside
                             the level of employee training should be referred to the IRS toll-free
                             telephone lines or have their questions submitted via the Internet (called
                             “R-mail”) for assistance.
                                                                                               Page 2
   Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
             During July and August 2003 Than Compared to One Year Ago

                                This report is the tenth in a series of bi-monthly reports that
                                we are issuing on the results of the visits to the TACs. The
                                review was performed in the IRS Customer Assistance,
                                Relationships, and Education office in the W&I Division in
                                July and August 2003. TIGTA auditors anonymously
                                visited 35 TACs in 13 states. Another 15 TACs in 9 states
                                were visited as part of our referral assessment (see
                                Appendix IV for specific states visited).
                                This review was conducted in accordance with Government
                                Auditing Standards. However, we did not determine the
                                cause and effect for the findings and will make no
                                recommendations in the bi-monthly reports. We will issue a
                                semiannual trend report during the first quarter of FY 2004
                                that will include appropriate recommendations to help
                                ensure that taxpayers are referred to employees that can
                                provide accurate responses to their tax law questions.
                                Detailed information on our audit objective, scope, and
                                methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                During July and August 2002, IRS employees correctly
Taxpayers Received Correct
                                answered 44 percent and referred 14 percent of questions to
Answers to More Tax Law
                                publications, compared to answering 64 percent and
Questions When Compared to
                                referring only 2 percent to publications during July and
the Same Period Last Year
                                August 2003. We commend the IRS for the corrective
                                actions it has taken in response to our previously issued
                                semiannual and bi-monthly reports. We believe the increase
                                in accuracy rates compared to those in the same period in
                                CY 2002 can be directly attributed to these actions.
                                Our auditors made 698 anonymous visits to 35 TACs and
                                asked 138 tax law questions during July and August 2003.
                                The results were as follows:
                                    •   Eighty-eight (64 percent) of the 138 questions were
                                        correctly answered. However, the IRS employees
                                        provided correct answers to 10 of the 88 questions
                                        without asking all of the required questions outlined
                                        in the tax law instructions and publications. By not
                                        using available resources to ask all required

                                8
                                 Normally two auditors will visit a TAC. However, only 1 auditor
                                made a visit to the Youngstown, Ohio, TAC, resulting in 69 overall
                                TACs visited (35 TACS x 2 auditors - 1 visit = 69 TACs).
                                                                                               Page 3
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago

                                      questions, IRS employees are making assumptions
                                      and providing answers without considering relevant
                                      facts to ensure the answers given are correct. For
                                      example, for 3 of the 10 questions, the IRS
                                      employees stated that the auditors did not have to
                                      report child support payments as income.
                                      However, the employees did not ask if the auditors’
                                      payments were specifically designated as child
                                      support in the divorce agreements.
                                 •    Twenty-nine (21 percent) of the 138 questions were
                                      incorrectly answered. For example, for three
                                      questions, the IRS employees incorrectly advised
                                      auditors that they would not have to pay taxes on
                                      their retirement plan distribution if it was rolled over
                                      to an Individual Retirement Arrangement (IRA).
                                      The correct answer to the scenario presented by
                                      auditors was the retirement distribution was taxable
                                      because it was not rolled over to the IRA within
                                      60 days as required by tax law.
                                 •    Three (2 percent) of the 138 questions resulted in the
                                      IRS employees referring the auditors to publications
                                      and generally advising the auditors to do their own
                                      research to find the answers to the questions. For
                                      example, the auditor asked if he or she and his or her
                                      spouse qualified for the retirement/IRA savers credit.
                                      The IRS employee did not provide an answer but
                                      instructed the auditor to complete the form provided
                                      to determine if he or she qualified for the credit.
                                 •    Twelve (9 percent) of the 138 questions resulted in
                                      the auditor being denied service.9 For example, the
                                      auditor attempted to visit the TAC site, but it was
                                      closed for training.
                                 •    Six (4 percent) of the 138 questions resulted in the
                                      IRS employees correctly offering to refer the
                                      auditors to the IRS toll-free tax law telephone



                             9
                              Auditors were unable to ask 12 questions at 4 TACs that were
                             scheduled to be open but were closed at the time of their visits. We
                             counted these responses as service denied.
                                                                                              Page 4
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago

                                     number.10 For example, the auditor asked how he or
                                     she should report the money from the sale of land.
                                     The IRS employee researched FA office procedures
                                     and could not determine if the question related to a
                                     tax law topic he or she was allowed to answer.
                                     Therefore, the IRS employee correctly suggested
                                     that the auditor call the IRS toll-free tax law
                                     telephone number to obtain an answer to the
                                     question.
                             The following table provides a breakdown of the accuracy
                             of the answers to our questions.
                                                       Tax Law Questions
                                                      (138 questions asked)
                                                                       Ref.         Correct
                                                  Correct but          to   Service Toll-Free
                                          Correct Incomplete Incorrect Pub. Denied Referral
                              Responses      78         10          29        3      12        6
                             Percentages 57%           7%          21%        2%     9%       4%
                             Source: Anonymous visits performed by TIGTA auditors.

                             The chart below shows a comparison of CY 2002 to
                             CY 2003 accuracy rates.




                             10
                               No answer was provided, but the TRR referred the auditor to the IRS
                             toll-free tax law telephone number to obtain an answer to the question.


                                                                                             Page 5
    Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
              During July and August 2003 Than Compared to One Year Ago

                                                  Comparison of July and August 2002 and 2003
                                                         Bi-Monthly Accuracy Rates11
                                                               July/Aug 03       July/Aug 02
                                      100
                                       80
                                                  64%
                                       60
                                                     44%
                                       40                     32%
                                                           21%                   14%
                                       20                                                9% 9%
                                                                             2%                     4% 0%
                                        0




                                                ct




                                                                                                       ee
                                                               t




                                                                             b




                                                                                          ed
                                                             ec




                                                                          Pu
                                             re




                                                                                                    Fr
                                                                                           i
                                                           rr




                                                                                        en
                                             or




                                                                                                 ll-
                                                                       to
                                                          co




                                                                                       D
                                            C




                                                                                               To
                                                        In




                                                                     ef




                                                                                    r.
                                                                                  Se
                                                                    R
                                 Source: TIGTA reviews conducted during July and August 2002 and
                                 2003.

                                 In January 2003, we began our assessment of whether IRS
Taxpayers Received Answers to
                                 employees adhered to operating guidelines that require the
Some Tax Law Questions
                                 referral of tax law questions outside the scope of services
Employees Were Not Trained to
                                 they have been trained to answer. In addition to scheduled
Answer
                                 visits, TIGTA auditors completed visits to 15 additional
                                 TACs. The auditors asked 40 “out of scope” questions and
                                 determined that employees did not follow referral
                                 procedures in providing answers to 12 (30 percent) of the
                                 questions asked.
                                 IRS operating guidelines require IRS employees that receive
                                 a question beyond their level of training to offer to call the
                                 correct IRS toll-free telephone line on behalf of the taxpayer
                                 or to submit the question in writing to a subject-matter
                                 expert(s) via the Internet (R-mail).12 The table below
                                 provides a breakdown of IRS employees’ answers to tax law
                                 questions beyond their level of training.




                                 11
                                    The “Correct” rates presented in the chart include “Correct” and
                                 “Correct but Incomplete” responses.
                                 12
                                    Each questions submitted to the IRS R-mail system will be assigned
                                 to a designated employee who will provide an answer to the question
                                 within 15 business days.
                                                                                                            Page 6
     Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
               During July and August 2003 Than Compared to One Year Ago

                                                            Out of Scope Questions
                                                             (40 questions asked)
                                                                       Questions Answered13 (12)
                                                   Correctly
                                                   Referred                                       Ref. to
                                                                   Correct         Incorrect
                                                                                                   Pub.
                                       Responses       28             9                3             0
                                   Percentages    70%             75%           25%                 ---
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  Auditors also assessed the quality of assistance provided by
Auditors Generally Had Positive
                                  IRS employees including whether they were professional
Experiences When They Visited
                                  and courteous, the wait time for service, and whether
Taxpayer Assistance Centers
                                  employees’ names were given or visible. Auditors generally
                                  had positive experiences. The following table shows a
                                  breakdown of the quality of assistance results.
                                                         Quality of Assistance
                                                   (35 TACs visited, 2 auditors per site)
                                                                             Occurrences        Percent14
                                   Employee Professional/Courteous               63               100%
                                   Wait Time 0-15 Minutes                        60               95%
                                   Wait Time 16-30 Minutes                        3                5%
                                   Wait Time 31-45 Minutes                        0                 --
                                   Wait Time 46-60 Minutes                        0                 --
                                   Wait Time Greater Than 1 Hour                  0                 --
                                   Employee Name Given or Visible           43                    68%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  The TIGTA auditors found that improvements were made to
Improvements Were Made to
                                  ensure that TAC addresses and office hours made available
Provide Accurate Taxpayer
                                  to taxpayers matched the information posted at the TACs.
Assistance Center Office Hours
                                  Taxpayers can access the IRS Internet web site and follow
and Addresses to Taxpayers
                                  the appropriate links to obtain the addresses and office hours


                                  13
                                     The TRR should have referred the out of scope question to the
                                  toll-free telephone lines or R-mail, but instead the TRR provided an
                                  answer.
                                  14
                                     Percentage is based on 63 visits instead of 70 because 2 auditors could
                                  not visit 2 different TACs; 1 other auditor could not visit another
                                  2 different TACs since the TACs were closed; and only 1 auditor visited
                                  the Youngstown, Ohio, TAC.
                                                                                                    Page 7
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago

                             of the TACs located in their state. Taxpayers that do not
                             have access to the Internet may call the IRS toll-free
                             telephone numbers or automated telephone messaging
                             system to obtain this information.
                             In our first semiannual report, we made no
                             recommendations pertaining to TAC addresses and office
                             hours because of the IRS’ response to one of our bi-monthly
                             reports.15 However, while progress was made, we continued
                             to identify concerns in this area during July through
                             December 2002. Specifically, 43 percent of TAC addresses
                             and 2 percent of TAC office hours posted at the TACs did
                             not match those on the Internet. As a result, our second
                             semiannual trend report included a recommendation to
                             ensure TAC addresses and office hours made available to
                             taxpayers are accurate. In response, the FA office issued
                             guidance that required managers to certify the accuracy of
                             addresses and office hours on the various systems. The FA
                             office also provided employee training on how to update
                             addresses and office hours and began monitoring to ensure
                             the accuracy of information made available to taxpayers.
                             Beginning in January 2003, we evaluated whether TAC
                             addresses and office hours provided to taxpayers via the
                             Internet, toll-free telephone numbers, and automated
                             telephone messaging system matched the information
                             posted in the TACs. Auditors found the following.
                             Improvement has been made to ensure addresses and
                             office hours made available to taxpayers match the
                             addresses and office hours posted at the TACs
                             •    Addresses posted at 23 (79 percent) of 2916 TACs
                                  matched the addresses listed on the Internet, toll-free
                                  telephone numbers, and automated telephone messaging
                                  system.
                             •    Office hours for 25 (71 percent) of the 35 TACs with
                                  office hours posted on the Internet and automated


                             15
                                Management Advisory Report: Taxpayers Continue to Receive
                             Incorrect Answers to Some Tax Law Questions (Reference Number
                             2002-40-113, dated June 2002).
                             16
                                Percentage based on 29 TACs instead of 35 because the addresses
                             were not posted at 6 TACs.
                                                                                           Page 8
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago

                                 telephone messaging system matched the hours posted
                                 at the TAC.
                             •   Office hours for 26 (74 percent) of the 35 TACs with
                                 office hours posted on the toll-free telephone numbers
                                 matched the hours posted at the TAC.
                             The IRS informed us that the addresses and office hours
                             available to taxpayers from the Internet were the most
                             reliable. As a result, we used these data as a baseline to
                             expand our analysis to determine if addresses and office
                             hours provided to taxpayers from the Internet matched those
                             on the IRS toll-free telephone numbers and automated
                             telephone messaging system.
                             Improvement has been made to ensure addresses and
                             office hours provided to taxpayers that accessed the IRS
                             Internet web site matched the information provided by
                             the IRS toll-free telephone numbers and automated
                             telephone messaging system
                             The following tables show the results of our comparison of
                             addresses and office hours made available to taxpayers that
                             access the Internet to the information made available to
                             taxpayers that call the IRS toll-free telephone numbers or
                             automated telephone messaging system.


                                      Comparison of Accuracy of Information Provided
                                                 via Internet to Toll-Free
                                                         Occurrences             Percent
                              Address Correct                35                  100%
                              Office Hours Correct            35                   100%
                             Source: Anonymous visits performed by TIGTA auditors.


                                 Comparison of Accuracy of Information Provided via Internet
                                        to Automated Telephone Messaging System
                                                         Occurrences             Percent
                              Address Correct                 35                  100%
                              Office Hours Correct            34                   97%
                             Source: Anonymous visits performed by TIGTA auditors.



                                                                                          Page 9
      Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
                During July and August 2003 Than Compared to One Year Ago

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine if the Internal Revenue Service (IRS)
provides accurate and timely responses to taxpayers’ tax law questions. In addition, Treasury
Inspector General for Tax Administration auditors that made anonymous visits to the Taxpayer
Assistance Centers (TAC) assessed whether IRS employees adhered to operating guidelines on
referral procedures and were professional and courteous, and whether the TAC addresses and
office hours made available to taxpayers were accurate. We did not determine the cause and
effect for the findings, so we are making no recommendations in the bi-monthly reports.
To achieve this objective, auditors performed the following tests:
I.        Determined if the IRS provided quality service and accurate responses to tax law
          inquiries at the 35 TACs visited. Auditors asked 138 tax law questions that an individual
          taxpayer1 might ask. Auditors developed questions based on the training provided to Tax
          Resolution Representatives (TRR)2 during the fall of 2001 and the scope of services for
          tax law assistance prescribed in the Fiscal Years 2002 and 2003 Field Assistance (FA)
          office Operating Procedures.
II.       Determined if TRRs followed FA office Operating Procedures to refer questions that
          were outside the scope of services they should have been trained to answer. In addition
          to scheduled visits, auditors completed visits to 15 additional TACs and asked
          40 questions that were beyond the TRRs’ level of training.
III.      Determined the quality of service provided by the TRRs.




1
  Individual taxpayers are nonbusiness taxpayers that file United States Individual Income Tax Returns
(Forms 1040, 1040A, or 1040EZ).
2
  IRS employees that work in the TACs are called TRRs.
                                                                                                         Page 10
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
            During July and August 2003 Than Compared to One Year Ago

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell Martin, Acting Director
Frank Jones, Audit Manager
Tanya Boone, Senior Auditor
Pamela DeSimone, Senior Auditor
Lena Dietles, Senior Auditor
Deborah Drain, Senior Auditor
Robert Howes, Senior Auditor
Edie Lemire, Senior Auditor
Bonnie Shanks, Senior Auditor
Grace Terranova, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Roberta Fuller, Auditor
Andrea Hayes, Auditor
Kathy Henderson, Auditor
Mary Keyes, Auditor




                                                                                         Page 11
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
            During July and August 2003 Than Compared to One Year Ago

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison SE:W:S:PA




                                                                                    Page 12
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
            During July and August 2003 Than Compared to One Year Ago

                                                                                    Appendix IV


                       States Visited During July and August 2003




The 13 states visited in which auditors asked questions within the scope of services include
Arkansas, Idaho, Louisiana, Maine, New Hampshire, North Carolina, North Dakota, Ohio,
Pennsylvania, South Dakota, Tennessee, Vermont, and Washington.
The nine states visited in which auditors asked questions outside the scope of services include
Alabama, Maine, Mississippi, North Carolina, Ohio, Oregon, Tennessee, Vermont, and
Washington.




                                                                                           Page 13
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago

                                                                   Appendix V


                Management’s Response to the Draft Report




                                                                         Page 14
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago




                                                                         Page 15
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During July and August 2003 Than Compared to One Year Ago




                                                                         Page 16
